           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   THE SOCIAL SECURITY ADMINISTRATION’S
    RISK OF MAKING PAYMENTS TO PERSONS
     WHO COMMIT, THREATEN TO COMMIT,
           OR SUPPORT TERRORISM

     September 2010     A-08-10-20131




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
MEMORANDUM

Date:      September 27, 2010                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Risk of Making Payments to Persons Who Commit,
           Threaten to Commit, or Support Terrorism (A-08-10-20131)


           OBJECTIVE
           Our objective was to assess the Social Security Administration’s (SSA) risk of making
           payments to individuals who commit, threaten to commit, or support terrorism.

           BACKGROUND
           In September 2001, President Bush signed Executive Order (EO) 13224, Blocking
           Property and Prohibiting Transactions with Persons Who Commit, Threaten to Commit,
           or Support Terrorism, giving the Government a means of disrupting the financial support
           network for terrorists and terrorist organizations. On December 18, 2002, the
           Department of the Treasury (Treasury) issued Financial Manual, Bulletin No. 2003-04,
           notifying Federal agencies of the implementation of EO 13224. The Bulletin states
           Federal agencies must not make payments or draw checks or warrants payable to an
           individual or organization listed on the Office of Foreign Assets Control’s (OFAC)
           Website of persons who commit, threaten to commit, or support terrorism. 1




           1
            OFAC, within Treasury, administers and enforces economic and trade sanctions based on U.S. foreign
           policy and national security goals against targeted foreign countries and regimes, terrorists, international
           narcotics traffickers, those engaged in activities related to the proliferation of weapons of mass
           destruction, and other threats to the national security, foreign policy, or economy of the United States.
Page 2 - The Commissioner


In 2005, we reviewed the actions SSA had taken to ensure it was not making payments
to individuals or organizations on OFAC’s Website. 2 We determined that SSA had not
taken all of the necessary steps to ensure it was not making such payments.
Specifically, SSA had not matched payment records for its Title II and XVI programs3 or
its Third Party Payment System (TPPS) 4 with OFAC’s file. We concluded that, if SSA
did not take steps to comply with EO 13224, the Agency would remain at risk of making
payments to terrorists or terrorist organizations. We recommended that SSA coordinate
with OFAC to ensure compliance with EO 13224. In its response, SSA stated it
believed the Agency was fully complying with EO 13224 because it was taking all
appropriate measures in its authority to carry out the provisions of this EO by precluding
benefit payments to terrorists in certain situations authorized under the Social Security
Act. SSA stated that neither EO 13224 nor the Social Security Act gives the Agency
authority to withhold or stop the payment of Title II or XVI benefits simply because a
person is identified on the OFAC list as a terrorist. While we acknowledged the steps
SSA had taken to preclude payment to individuals who had violated criminal and
immigration law, we stated the Agency had no assurance that these steps detect
terrorists or terrorist organizations in OFAC’s file.

To accomplish our objective, we interviewed SSA and Treasury officials. We also
obtained OFAC’s list of Specially Designated Nationals (SDN) as of March 2010. 5 From
this list, we performed limited testing to determine whether SSA had made payments to
any individuals on OFAC’s list of persons who commit, threaten to commit, or support
terrorism. See Appendix B for additional information on our audit scope and
methodology.




2
 The Social Security Administration's Compliance with Presidential Executive Order 13224 Prohibiting
Transactions with Persons Who Commit, Threaten to Commit, or Support Terrorism (A-08-05-15093),
September 2005.
3
 SSA makes monthly payments to about 53 million individuals under the Old-Age, Survivors and
Disability Insurance program (Title II) and 8 million individuals under the Supplemental Security Income
program (Title XVI).
4
  SSA uses TPPS to pay vendors for goods and services, reimburse employees, and provide emergency
funds to beneficiaries.
5
  OFAC publishes a list of individuals and companies owned or controlled by, or acting for or on behalf of,
targeted countries. It also lists individuals, groups, and entities, such as terrorists and narcotics traffickers
designated under programs that are not country-specific. Collectively, such individuals and companies
are called SDNs. Their assets are blocked, and U.S. persons are generally prohibited from dealing with
them.
Page 3 - The Commissioner


RESULTS OF REVIEW
Based on interviews with SSA and Treasury officials, we believe SSA remains at risk of
making payments to individuals who commit, threaten to commit, or support terrorism.
To comply with new rules initiated by OFAC to safeguard international direct deposits
from terrorists, SSA worked with Treasury to facilitate screening of SSA recipients who
live outside the United States and receive payment at a foreign financial institution.
However, SSA does not screen other payments because it believes that neither
EO 13224 nor the Social Security Act gives the Agency authority to withhold or stop
benefit payments when a person is identified on the OFAC list as a terrorist.
Additionally, the Agency believes it is taking all appropriate measures in its authority to
carry out the provisions of EO 13224.

Notwithstanding SSA’s position that an Executive Order does not take precedent over
the Social Security Act, we believe all Federal agencies should take a risk-based
approach to prevent issuing payments that could be used to fund terrorist activities.
Therefore, we believe SSA should work with the Department of Justice (DoJ), Treasury,
the Office of Management and Budget (OMB), and, if necessary, others to resolve any
issues the Agency believes prevent it from screening payments to individuals identified
on OFAC’s list. Once resolved, SSA should develop a risk-based process to identify
individuals on OFAC’s list who apply for, or are receiving, SSA benefits and work with
Treasury to determine whether payments should be blocked. For example, SSA could
periodically review OFAC’s file and flag individuals with valid Social Security numbers.

Although Treasury Screens Some SSA Payments, Most Are Unchecked

In September 2009, SSA began providing Treasury with identifying information to
enable OFAC screening of SSA recipients who reside outside the United States6 and
receive payment by direct deposit at a foreign financial institution. 7 An official from
SSA‘s Office of Financial Policy and Operations told us the Agency began providing
Treasury with such information because of new rules governing international direct
deposits. 8 These rules were written to ensure that international transactions undergo
the screening required by OFAC to fight terrorist financing and money laundering.
According to this official, SSA is also working with Treasury to develop a similar process

6
 SSA defines “living outside the United States” as not living in the 50 States, the District of Columbia,
Puerto Rico, the U.S. Virgin Islands, Guam, the Northern Mariana Islands or American Samoa (SSA
Publication No. 05-10137 dated June 2009).
7
 Treasury processes direct deposits to Canada, Mexico, and Panama—considered domestic Automated
Clearing House (ACH) transactions—through its International Treasury Services (ITS). ITS forwards
direct deposit information to the Federal Reserve Bank (FRB) of New York, which screens deposits
against OFAC’s terrorist list. Treasury sends all other direct deposits to Citibank, which screens deposits
against OFAC’s file. If the FRB or Citibank confirm a match, they are required to block the payment and
notify OFAC and SSA.
8
 The National Automated Clearing House Association (NACHA) -The Electronic Payments Association
establishes uniform operating rules for the exchange of ACH payments.
Page 4 - The Commissioner


to screen recipients who reside outside the United States and receive payment by direct
deposit at a domestic financial institution. However, this official told us that Treasury
had not decided whether it will screen these payments or request that SSA do so.

While Treasury’s screening of international direct deposits reduces the Agency’s risk of
making payments to terrorists, most SSA payments remain unchecked. As shown in
Table 1, SSA does not screen direct deposits to recipients living in the United States,
those receiving payment by check, or payments made through its TPPS. These
payments account for about 99 percent of the Agency’s payments.

                      Table 1: SSA Payments Screened Against OFAC’s File

                  Payments                   OFAC Screening       No OFAC Screening
 Title II
   Direct deposits to foreign addresses              X
   Direct deposits to U.S. addresses                                       X
   Checks to foreign addresses                                             X
   Checks to U.S. addresses                                                X
 Title XVI
   Direct deposits to foreign addresses              X
   Direct deposits to U.S. addresses                                       X
   Checks to foreign addresses                                             X
   Checks to U.S. addresses                                                X
 Third Party Payment System                                                X
Source: SSA and Treasury officials

SSA’s Screening Policies and Procedures

An official from SSA’s Office of the General Counsel told us the Agency had not
screened payments other than international direct deposits because it believes it is in
full compliance with EO 13224. That is, SSA believes it is taking all appropriate
measures in its authority to carry out the provisions of this EO by precluding benefit
payments to terrorists in certain situations authorized under the Social Security Act.
Specifically, the Social Security Act generally precludes payment to prisoners, fugitive
felons, and noncitizens living outside the United States or residing here illegally. In
addition, SSA generally verifies the immigration status of all noncitizen applicants for
benefits with the Department of Homeland Security. Furthermore, this official told us
that neither EO 13224 nor the Social Security Act gives the Agency authority to withhold
or stop the payment of Title II or XVI benefits simply because a person is identified on
the OFAC list as a terrorist.

While we acknowledge the steps SSA has taken to verify the immigration status of
noncitizens and preclude payments to those who have violated criminal and immigration
law, SSA has minimal assurance that these steps prevent payments to terrorists and
terrorist organizations. For example, we identified one individual in OFAC’s file who
was entitled to Title II spousal benefits but was not receiving payments because he had
Page 5 - The Commissioner


not established lawful presence in the United States.9 However, this individual had
two residences—one in the United States and one outside the country. If he did meet
U.S. presence requirements, only direct deposit payments made to a foreign financial
institution would be screened by Treasury. Payments made by check or direct deposit
to a domestic financial institution would not be screened and could reach this individual.
Given such risk and the potential expansion of OFAC screening (recipients who reside
outside the United States and receive payment by direct deposit at a domestic financial
institution), we believe it is important for SSA to work with DoJ, Treasury, OMB, and, if
necessary, others to resolve any issues the Agency believes prevent it from screening
payments to individuals identified on OFAC’s list.

The Agency has taken steps to remedy similar situations. For example, under a
September 2009 class action settlement agreement, SSA was required to pay some
beneficiaries who previously had benefits suspended as fugitive felons. 10 Because the
settlement class definition did not exclude beneficiaries who were imprisoned, SSA did
not have the authority to withhold retroactive payments due under the settlement.
However, in December 2009, SSA’s Commissioner sent Congress a legislative proposal
to prohibit retroactive Title II and XVI benefit payments from being sent to prisoners.
Subsequently, the President signed into law the No Social Security Benefits for
Prisoners Act of 2009 (Public Law 111-115), which prohibits retroactive payments to
individuals during periods for which such individuals are prisoners, fugitive felons, or
probation/parole violators.

We believe the Agency should, at a minimum, develop a risk-based process to identify
individuals on OFAC’s list who apply for, or are receiving, SSA benefits and work with
Treasury to determine whether payments should be blocked. For example, SSA could
flag Agency records to alert field office personnel that individuals in OFAC’s file may not
be eligible to receive Social Security benefits. SSA could periodically review OFAC’s
file and flag individuals with valid Social Security numbers. Based on our review of
OFAC’s file, we readily identified 16 individuals with valid Social Security numbers. We
believe this information would be especially useful during the benefit application process
to prevent payments to known terrorists.




9
  We also note that this individual’s spouse was receiving monthly SSA benefit payments. Although she
is not in OFAC’s file, we believe SSA should consider contacting OFAC to determine whether this
constitutes “supporting” terrorist activity.
10
     Martinez, et al. v Astrue, Case No. 08-CV-4735 CW (N.D. Cal. 2009).
Page 6 - The Commissioner


CONCLUSION AND RECOMMENDATION
While SSA had worked with Treasury to screen some payment records, most remain
unchecked. As a result, the Agency remained at risk of making payments to persons
who commit, threaten to commit, or support terrorism.

Accordingly, we recommend that SSA work with DoJ, Treasury, OMB, and, if
necessary, others to resolve any issues the Agency believes prevent it from screening
payments to individuals identified on OFAC’s list. Once resolved, SSA should develop
a risk-based process to identify individuals on OFAC’s list who apply for or are receiving
SSA benefits and work with Treasury to determine whether payments should be
blocked.

AGENCY COMMENTS
SSA agreed in principle with our recommendation. The full text of SSA’s comments is
included in Appendix C.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
 ACH        Automated Clearing House

 DoJ        Department of Justice

 EO         Executive Order

 FRB        Federal Reserve Bank

 ITS        International Treasury Services

 NACHA      National Automated Clearing House Association

 OFAC       Office of Foreign Assets Control

 OMB        Office of Management and Budget

 SSA        Social Security Administration

 SDN        Specially Designated Nationals

 TPPS       Third Party Payment System

 Treasury   Department of the Treasury
                                                                      Appendix B

Scope and Methodology
To achieve our audit objective, we:

•   Interviewed representatives from the Social Security Administration’s (SSA) Offices
    of the General Counsel, Deputy Commissioner for Systems, and Deputy
    Commissioner for Retirement and Disability Policy.

•   Reviewed applicable laws, regulations, and SSA policies and procedures.

•   Interviewed officials from the Department of the Treasury’s Office of Foreign Assets
    Control (OFAC), International Treasury Services, and Financial Management
    Services.

•   Obtained the OFAC files of Specially Designated Nations (SDN) and addresses from
    the OFAC Website as of March 2010. We searched the SDN file for individuals with
    Social Security numbers and determined whether SSA had made any Title II or XVI
    benefits to them.

The SSA entity reviewed was the Office of the Deputy Commissioner for Retirement
and Disability Policy. We conducted our work at the Office of Audit in Birmingham,
Alabama. We primarily relied on SSA’s master program files to complete our review
and determined the data used in the report were sufficiently reliable given the audit
objective and use of the data. We conducted our work from March through May 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      September 16, 2010                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s Risk
           of Making Payments to Persons Who Commit, Threaten to Commit, or Support Terrorism"
           (A-08-10-20131)—INFORMATION

           Thank you for the opportunity to review the subject report. Please see our attached comments.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at extension 66975.

           Attachment:
           SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "THE SOCIAL SECURITY ADMINISTRATION’S RISK OF MAKING
PAYMENTS TO PERSONS WHO COMMIT, THREATEN TO COMMIT, OR
SUPPORT TERRORISM” (A-08-10-20131)

Thank you for the opportunity to comment on the subject report. We offer the following.

General Comments

You conducted an audit in 2005 on this same issue, and your recommendations then were similar
to those today. Likewise, we have not changed some of our responses. We reiterate and expand
upon some of our original comments below.

We are committed to homeland security and fully support Executive Order (EO) 13224 to block
property and prohibit transactions to persons who commit, threaten to commit, or support
terrorism. Nevertheless, we must comply with all laws that govern administration of our
programs. Neither the EO nor the Social Security Act (Act) gives us per se authority to withhold
Title II or Title XVI benefits simply because a person is on the Office of Foreign Assets Control
(OFAC) list. Nevertheless, we comply with other legal provisions that generally preclude
benefit payments to those who have violated criminal and immigration law.

For example, we do not pay benefits to persons incarcerated for criminal offenses, including
terrorists, who are confined to penal institutions. The same is true for those who are fleeing law
enforcement because of outstanding felony warrants. Our authority to suspend benefits in these
cases, including for parole violators, rests in section 202(x) of the Act. Similarly, section 202(n)
requires us to suspend benefits to non-citizens deported by the Department of Homeland Security
(DHS). In addition, section 202(t) of the Act generally restricts us from paying benefits to non-
citizens who remain outside the United States for more than six months. Finally, section 202(y)
of the Act precludes payments to any otherwise eligible non-citizen who is not lawfully present
in the United States.

We fully comply with these provisions of the Act and with the EO. EO 13224 “direct[s
agencies] to take all appropriate measures within their authority to carry out the provisions of
this order” (emphasis added). We take those measures. In fact, as you acknowledge on page 3,
we are taking even further actions in this area. As you state:

“To comply with new rules initiated by OFAC to safeguard international direct deposits from
terrorists, SSA worked with Treasury to facilitate screening of SSA recipients who live outside
the United States and receive payment at a foreign financial institution.”

You also state:

    These rules were written to ensure that international transactions undergo the
    screening required by OFAC to fight terrorist financing and money laundering.
    According to this official, SSA is also working with Treasury to develop a similar




                                                C-2
    process to screen recipients who reside outside the United States and receive
    payment by direct deposit at a domestic financial institution.

Clearly as it relates to programmatic payments, we take “all appropriate measures within our
authority to carry out the provisions of” EO 13224. We also act appropriately on payments to
organizations. You acknowledged in your 2005 report that “to its credit, SSA uses the Excluded
Parties Listing System (EPLS), a database that incorporates OFAC information, to screen
potential contractors and grantees.” We continue this practice today and it effectively prevents
us from paying organizations that support terrorism.

In 2005, you drew a representative sample of persons and companies on the OFAC list. You
then matched those cases against our Title II, Title XVI, and administrative payment records and
stated that you “did not identify any instances in which SSA made payments to these individuals
or organizations.” These results did not support your 2005 finding that we were at risk. Five
years later, we still see no evidence currently to bolster your opinion that “SSA remains at risk of
making payments to individuals who commit, threaten to commit, or support terrorism.” We
disagree with your assessment of risk, and if risk does exist, it is minimal.

Recommendation

Work with Department of Justice (DoJ), Treasury, the Office of Management and Budget, and, if
necessary, others to resolve any issues the agency believes prevent it from screening payments to
individuals identified on OFAC’s list. Once resolved, SSA should develop a risk-based process
to identify individuals on OFAC’s list who apply for or are receiving SSA benefits and work
with Treasury to determine whether payments should be blocked.

Response

We currently take all appropriate measures within our authority to comply with the provisions of
EO 13224. Nonetheless, we will continue to work with Treasury’s Office of Foreign Assets
Control to clarify our responsibility in this area. In addition, we will look into the possibility,
and appropriateness, of amending the Act to preclude payments to terrorists and terrorist
organizations.




                                                C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Jeff Pounds, Audit Manager, Birmingham Office of Audit

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-10-20131.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
